Mr. Chairman and Members of the Subcommittee:



     As the Inspector General (IG) for the Department of
Defense (DoD) and as the Vice Chairperson of the President's
Council on Integrity and Efficiency (PCIE), I appreciate the
opportunity to appear before you today to discuss the role
of Inspectors General.

     Ten years ago, one of my predecessors appeared before
the Government Operations Committee, as this Committee was
known then, and testified that the concept of the Inspector
General was valid and had proven to be a success. During
the last 10 years, the Federal Inspector General community
has become firmly established as an integral and highly
valued component of efforts to ensure effectiveness and
efficiency throughout government. Some of the recent
accomplishments of both the PCIE and the Executive Council
on Integrity and Efficiency are contained in the joint
publication titled A Progress Report to the President,
Fiscal Year 1996. The numbers in that report are
impressive. The PCIE, which consists of the statutory
Presidentially appointed Inspectors General, reported over
$15 billion in funds put to better use as a result of IG
recommendations. During that same year, IGs working
independently, or with other Federal and non-Federal
investigative agencies, obtained 3,372 successful
prosecutions of criminal activities. FY 1996 also witnessed
a total of 4,609 debarments, exclusions, and suspensions
imposed upon individuals and entities doing business with
the Federal government as a result of IG investigations.

HISTORICAL PERSPECTIVE

     While the American concept of the Inspector General
goes back to the Continental Congress and the army of
General George Washington, it was not until the late 1970s
that the original concept was expanded to include a much
broader mission and mandated in certain Federal civilian
departments. The Congress created the first statutory
Inspector General at the then Department of Health,
Education, and Welfare (HEW) in 1976. The following year,
an Office of Inspector General was included in the
legislation that created the Department of Energy. In 1978,
due in large part to the successes of the IG at HEW, the
concept was expanded to 12 agencies when the Congress passed
the Inspector General Act (P.L. 95-452). At the time, it
was hailed by Congressman Lawrence Fountain as "one of the
most monumental pieces of legislation … considered, because
                                                              2


of the billions of dollars it may well save through
increased economy and efficiency and a reduction in fraud
and program abuse." Congressman Ben Gilman called it a
"first step in the process of government accountability."
Despite some initial opposition, the Congress and
Administration crafted a compromise bill that passed with
overwhelming bipartisan support.

     In 1982, a provision in the National Defense
Authorization for FY 1983 (P.L. 97-252), created an Office
of Inspector General for the Department of Defense. There
had been much resistance within the Department to the idea
of a statutorily mandated Inspector General. The Congress
answered some of the Department's concerns about national
security by granting the Secretary special authority to
prohibit IG audits, investigations or subpoenas where
"necessary" to preserve national security interests. The
fact that that authority has never to date been exercised
underscores the fact that the IG concept has indeed worked
well at DoD over the years.

     Since 1978, with the exception of 1984, 1985, 1990,
1991, and 1992, a new Office of Inspector General has been
created every year and today there are 28 Presidentially
appointed and Senate confirmed Inspectors General and 31 IGs
appointed by the heads of designated Federal entities.

OFFICE OF THE INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

     I would like to take a few minutes to share with you
some facts and comments relative to the Office of Inspector
General, Department of Defense.

     Combating fraud, waste and abuse in an entity as huge
as the DoD is a substantial challenge: in Fiscal Year 1997,
the DoD encompassed $1 trillion in assets; 1.4 million
active duty military forces; 1.4 million in the Ready and
Standby Reserve; and about 800,000 civilian employees. The
amount of taxpayer dollars at issue is just as huge: the
Fiscal Year 1998 budget for the Department of Defense is
$250 billion.

     In short, we in the IG's office have plenty to do. To
accomplish our mission, we have today over 1,200 personnel,
including auditors, criminal and administrative
investigators, and program evaluators. I might add that
there are many other investigators and auditors throughout
the Department to which, for lack of resources, we often
delegate work, reserving the right to oversee what they do.
                                                              3


     Our criminal investigators focus primarily on contract
and procurement fraud, health care fraud, antitrust
violations, bribery, corruption and large-scale thefts of
government property while our auditors perform the primary
internal audit function within the Office of the Secretary
of Defense, the Joint Chiefs of Staff, the Unified and
Specified Commands and the Defense agencies. This work
entails coverage of such areas as mismanagement, matters
involving economy and efficiency in DoD operations,
contracts and programs, and financial audits.

     Recently, in response to concerns from the Congress
regarding the need to improve oversight of the DoD
intelligence community, we established a separate IG office
of Intelligence Review. This office has functional
oversight of the various Defense intelligence agencies, such
as the National Security Agency, the Defense Intelligence
Agency, and the National Reconnaissance Office.

     Additionally, the IG is responsible for conducting
administrative investigations of ethical violations and
other misconduct by senior DoD military and civilian
officials. We also conduct statutorily mandated
whistleblower investigations and operate the DoD Hotline
which last year received over 16,000 contacts.

     While our work does include self-initiated risk
assessments, a growing portion of it is prompted by DoD
management requests and statutory mandates. In addition, we
receive numerous requests from committees and individual
Members of Congress to conduct audits and investigations.
Last year, we received over 365 inquiries from Members, most
on behalf of their constituents concerning personnel or
contracting issues.
                                                           4



ACCOMPLISHMENTS

     Looking back over the first 20 years since passage of
the IG Act, there have been many significant accomplishments
that attest to the wisdom and the value of this legislation.
Monetary savings identified by audits and investigations
alone are significant and have far outweighed the
operational costs of conducting them. I have already cited
the most recent figures for savings produced by the PCIE
Members of the Inspector General community. At the
Department of Defense, since Fiscal Year 1989, IG audit
reports have identified almost $16 billion in agreed upon
savings. During that same period, monetary recoveries
through investigations by the Defense Criminal Investigative
Service (DCIS), the criminal investigative arm of my office,
have totaled over $4.5 billion. Historically, our criminal
investigators alone have returned at least $15 in recoveries
and fines for every dollar spent on their operations.

     Perhaps a more important but less quantifiable
indicator of accomplishment may be the degree to which the
Inspectors General have been increasingly entrusted to bring
needed independent and credible oversight to a wide variety
of critical issues throughout government. To insure both
professionalism and independence, Congress equipped the
Inspector General Act with two rare, if not unique features.
First, the Act required that IGs be appointed on the basis
of integrity and demonstrated ability in at least one of
certain designated fields of expertise. Secondly, the Act
established a dual reporting requirement for IGs--both to
the head of their respective departments and to the
Congress. The effectiveness of IGs is dependent on
establishing a good working relationship with both. The
dual reporting requirement in and of itself creates a clear
incentive for objectivity, independence and professionalism
in both audits and investigations.

     Increasingly over the years, both the Congress and
Executive Branch management have turned to the IGs for
objective reviews of sensitive issues of all types. At
Defense, we have been asked in the last few years to review
such controversial and highly visible issues as costs and
savings associated with the Base Realignment and Closure
Commission; the adequacy of over 50 investigations involving
deaths of service personnel; the assignment of military
personnel to Congress; the disappearance of chemical logs
created during the Gulf War; the shootdown of the Brothers
to the Rescue plane by Cuban MiGs; training issues
associated with the School of the Americas; and allegations
                                                             5


involving the deaths of U.S. citizens in Guatemala. These
reviews were done at the request of Congress or the
Department, and in some cases both. This type of reliance
on the IG is not unique to the Department of Defense. Just
recently, the Commissioner of the Internal Revenue Service
sought out assistance from the PCIE in conducting a thorough
and independent review of the IRS Inspection Service, a
matter of some concern to the Congress. Several IGs have
detailed a total of 10 people to work on this review, which
is now ongoing. In short, while clearly the IGs are not
perfect, our customers -principally the Congress and the
Department in which we work - increasingly rely on us for
objective and professional assessments of critically
important issues.

CHANGES AFFECTING INSPECTORS GENERAL

     In the 20 years since the passage of the IG Act, the
core mission of the IGs, including the DoD IG, has not
changed. As the Inspector General, my role is to use our
resources to help the Department both identify its most
critical problems and also find solutions to those problems.
As stated in our strategic plan, the mission of the DoD IG,
is:

     "to promote national security and integrity and
     credibility in government by conducting objective and
     independent audits, investigations, and evaluations and
     other activities to prevent, detect and help correct
     problems in DoD programs and to identify opportunities
     for improving efficiencies and effectiveness."

     While our mission is basically the same, the
environment in which we operate is changing dramatically.
The Department of Defense, as the rest of the government, is
undergoing immense change. We are all facing significant
new challenges in an era of shrinking government. As the
government downsizes, difficult, and often painful,
decisions must be made on where losses will be taken and
what core processes need to be preserved.

     As a result, there has been an intensified effort to
combat waste and to streamline and reengineer processes.
The Inspector General community, including our office, has
been an integral part of that process on numerous fronts.

     At DoD, acquisition reform, financial management,
infrastructure reduction, and information technology have
all had a major impact on the focus of our audit and
investigative efforts. We have worked hard for instance to
                                                            6


promote acquisition reform while reporting deficiencies in
weapons systems planning and supporting efforts to insert
new lower cost and commercial dual use technologies into
existing weapons systems. We have recommended the
consolidation, automation, and integration of the
Department's many, many financial and accounting systems,
hoping to vastly improve the accuracy and reliability of the
financial data in those systems.

     On another front, while advances in information
technology promise improved access to information, it also
presents new and substantial additional challenges for
government and for the Inspectors General. At Defense,
there is a huge potential for abuse in its vast information
infrastructure--that infrastructure now spans over 2 million
computers, 10,000 local networks, and 100 long-distance
networks. The Department spends more than $10 billion a
year on information technology. Nevertheless, it's been
reported that as many as 250,000 attacks were carried out
against Defense Department systems in 1995 and I am told
that number has continued to grow in the last two years.
This is accomplished using tools and techniques now
available to millions of computer users. While it is
estimated that at least 65 percent of those attacks are
successful, only one percent are actually detected and
reported.

     As both the benefits and the challenges posed by the
information technology revolution continue, the Inspectors
General must expand their focus and their capabilities
accordingly. At DoD, we are attempting appropriate
oversight of the many key issues in this very complex and
changing area. Those include addressing the serious
challenges posed by the Year 2000 conversion program;
improving the Department's perilous computer security
posture; moving away from decades of disjointed information
systems management to fully integrated systems; and
effectively implementing the disciplined investment decision
making process mandated by the Clinger/Cohen Act.

     As the problem of computer intrusion grows, we have
seen the emergence of "cyber fraud" which presents totally
new and uncharted challenges for law enforcement, including
the Inspectors General. At DoD, the DCIS is attempting to
answer these challenges through a new computer intrusion and
computer crimes investigations unit as well as close
coordination with the FBI and the recently created National
Infrastructure Protection Center.

     Finally, as part of the increased emphasis on a more
                                                           7


effective, more efficient, and better managed government,
many Inspectors General have in recent years moved to work
more constructively with management, while still maintaining
their independence. Our goal should be to become part of
the solution process, rather than simply identifying the
problems. Over the past 5 years, the DoD IG, has
participated in over 100 management process action teams,
integrated process teams and working groups that have been
the Department's principal means of generating new ideas for
reforms and process improvement across the spectrum of DoD
business activities. At present we are involved in 57 such
groups. The growing level of IG participation on those
teams illustrates the good professional working
relationships between the IG and the rest of the Department,
as well as general acceptance of the need for our advice to
be considered during the reengineering of processes, not
just after new processes are already put into place.

PRESIDENT'S COUNCIL ON INTEGRITY AND EFFICIENCY (PCIE)

     By Executive Order 12301, the President's Council on
Integrity and Efficiency (PCIE) was created in 1981 to
"coordinate and enhance government efforts to promote
integrity and efficiency" in Federal programs. In addition
to the 28 Presidentially appointed and Senate confirmed IGs,
its membership includes the Deputy Director of Management of
the Office of Management and Budget, who serves as Chair;
the Controller of the Office of Federal Financial
Management; the Associate Deputy Director for Investigations
of the Federal Bureau of Investigation; the Director, Office
of Government Ethics; the Special Counsel of the Office of
Special Counsel; and the Deputy Director of the Office of
Personnel Management. (Executive Order 12805, signed May
11, 1992, made changes to the original Executive Order to
reflect the changes made in 1988 to the IG Act.) The PCIE
has 6 committees in which issues are examined in detail.
They are the Audit Committee, the Inspections and
Evaluations Committee, the Investigations Committee, the
Legislation Committee, the Professional Development
Committee, and the Integrity Committee.

     As you know, the Inspector General community is a large
and diverse one. While all the IGs who sit on the PCIE
share a broad common mission, they have many differences
ranging from the size and makeup of their operation to the
specific focus and mission of the Department in which they
operate. The great strength of the PCIE has been as a forum
to bring together the IGs, establish agreement on issues of
common concern, such as quality standards and training, and
encourage them to share and learn from an exchange of "best
                                                               8


practices" and "lessons learned."

     I became the Vice Chair of the PCIE in January 1998
and, in that capacity, want to share with you some of the
positive contributions we believe the PCIE has made to the
IG community and, in turn, to the goal of good government.
Along those lines, recent and ongoing PCIE efforts have
included:

•   Review of the Next Generation of Card-Based Payment
    Systems (March 1997) - The PCIE issued a report prepared
    with the participation of the Chief Financial Officer's
    Council, on issues and concerns that need to be addressed
    as the government moves to increased use of credit cards
    for travel, purchase, and fleet card services.

•   Quality Standards for Investigations (September 1997) -
    The PCIE reviewed earlier investigative standards for the
    IG community and updated them to reflect, among other
    things, the increased use of technology in
    investigations.

•   Prescreening of Federal Grants and Loans by Offices of
    Inspector General and Their Agencies and Loan Offices -
    (January 1998) - The PCIE examined procedures used by the
    IGs and their respective agencies to review Federal
    assistance projects. This review has permitted the
    sharing of information among IGs about ways to prevent as
    well as detect waste, fraud and abuse by Federal grant
    and loan recipients.

•   Working Relationships of IG Inspection and Evaluation
    Units (January 1998) - This survey of Inspection and
    Evaluation offices within the IGs identified and shared
    successful practices used in those offices.

•   IG Investigations and You (April 1998) - Based on
    concerns raised by this subcommittee, the PCIE has
    formulated a general informational pamphlet for the IG
    community which can be customized for each Inspector
    General to distribute within their own department.

•   Investigative Training - The IG community established an
    IG Criminal Investigative Academy (IGCIA) in Glynco,
    Georgia in 1993. After completion of course work at the
    Federal Law Enforcement Training Center, IG special
    agents then receive follow-on training specifically
    designed by the IG community.
                                                              9


•   Audit Training - In 1991, the IG community also created
    the IG Auditor Training Institute (IGATI). IGATI stands
    alone as the only organization whose purpose is to
    address the unique training needs of Federal auditors.

•   Audit Standards - The PCIE is working with the General
    Accounting Office to create one manual for the government
    for financial statement audits to address the many new
    issues emerging in government financial management.

     The PCIE fully recognizes the importance of maintaining
the integrity of the office and has, over the years,
attempted to address concerns about accountability of
Inspectors General, an issue also before this subcommittee.
The PCIE supported and was instrumental in the drafting of
Executive Order 12993, issued March 21, 1996. That order
established the PCIE Integrity Committee, chaired by the
FBI, as a formal mechanism empowered to review and, if
appropriate, investigate allegations against IGs and certain
senior staff members of IGs. If their investigation
justifies further action, the Committee's report is
forwarded to the Chair of the PCIE who, in turn, forwards it
to the head of the agency involved for appropriate action.
This Executive Order formalizes what had been an Allegations
Review Subcommittee under the Integrity in Law Enforcement
Committee, which the PCIE created in 1990. Prior to 1990,
the PCIE had an informal working group which was a
clearinghouse for allegations against IGs and their staffs.

     The PCIE fully understands that integrity is, above all
else, key to the credibility of individual IGs as well as
the entire Inspector General community. With a formal
process now in place as a result of the Executive Order, we
intend to continually work with the Integrity Committee to
help insure professional and timely investigations in this
most critical area.

CONCERNS FOR THE FUTURE

     I understand that the Subcommittee is interested not
only in the major issues facing IGs today but also in ways
in which the IGs can be strengthened for the future. I
would like to conclude by focusing on what I see as some
areas of growing concern for the Inspector General
community. There are several emerging issues that cut
across the community. These include:

•   Cyber Fraud: The potential for criminal activity in the
    cyber environment continues to grow as government
    agencies increase reliance on electronic commerce and
                                                           10


    processes. This creates not only a need for increased IG
    focus but also for specialized skills training and
    expertise throughout the IG community. This is a growing
    area of difficulty for IGs, not only in competitively
    attracting individuals with this expertise, but also in
    training and maintaining these skills in-house.

•   Record Retention and Digital Signatures: As government
    and industry move to a paperless environment, there is a
    need to determine what records should be maintained in a
    non-electronic format. The move to electronic commerce
    and electronic filing systems has also raised the need to
    develop digital signatures that would authenticate
    original documents. Obviously, these are areas of
    concern for prosecutorial and law enforcement agencies,
    including the IGs, since they could substantially impact
    the government's ability to obtain the proof required for
    criminal prosecutions.

•   Outsourcing: As efforts to streamline government
    continue, agencies are being encouraged to outsource
    functions that have been performed in-house. As IGs are
    increasingly relied upon to perform independent
    validation of outsourcing studies as required by OMB
    Circular A-76, this will create additional resource
    burdens for the community. Moreover, as outsourcing
    continues, there are legitimate questions about the
    extent to which government can maintain adequate
    oversight of the taxpayer dollars being directed to the
    private sector.

•   Potential amendments to the False Claims Act: Members of
    industry have recently suggested changes to the False
    Claims Act, Section 3729-3733 of Title 31 United States
    Code. The Act has been an invaluable tool to the IGs and
    others in efforts to combat fraud against the government.
    Some recent proposals would limit the impact of the Act
    by raising the required standard of proof and decreasing
    the amount of applicable penalties. While some have
    suggested that the Act subjects simple innocent mistakes
    to unreasonable penalties, that argument is inconsistent
    with the clear language of the Act. What is undisputed
    is the fact that the Act has been a significant player in
    government efforts against fraud and abuse: in the last
    five years (FY 1993-1997) $844,714,737 was collected as a
    result of DoD investigations of False Claims Act
    violations.

•   Resources - Now may be the appropriate time to explore
    innovative ways to insure needed resources for Inspectors
                                                             11


  General, including such things as asset forfeiture,
  retention of a portion of recovered penalties, and
  variations of the concepts embodied in the Health Fraud
  and Abuse Control Program, created in the Health Care
  Insurance Accountability and Portability Act (P.L. 104-
  191). As I have reported to the DoD and Congress on
  several occasions, including my last three IG semiannual
  reports to the Congress, I am very concerned that ongoing
  budget cuts at the DoD IG will adversely impact the
  adequacy of audit and investigative coverage of high risk
  areas. To be frank, my biggest concern has not been with
  the current provisions of the IG Act, which for the most
  part, have served us well. Rather, the biggest problem
  for my organization has been the continuing difficulties
  we face in coping with programmed downsizing. We have
  undergone staff reductions of 21 percent since 1995 and
  are currently scheduled to undergo further cuts of an
  additional 16 percent in the next three years. Despite
  our significant efforts at reengineering, we are quickly
  reaching the point where we can no longer overcome
  increasing workload demands with productivity increases
  while continuing to downsize. This is occurring during
  an era of turbulence and considerable risk for all of
  government as it struggles with the introduction of new
  processes, reorganizations, downsizing, increased stress
  on the workforce, outsourcing, and increased reliance on
  automated systems. Inadequate investment in a sound and
  effective Inspector General effort compounds the problems
  and the risks already facing government. There is no
  question that professionalism, independence and
  accountability are essential to effectiveness in IG
  efforts but, so too, are adequate resources.

     In closing, let me assure you that I, and my colleagues
in the PCIE, stand ready to work with you to improve and
strengthen the entire Inspector General community.

     Mr. Chairman, that concludes my prepared remarks.   I
would be happy to take any questions.
